               Actions Are Needed to Ensure Corporations
              Receive Intended Tax Benefits for Reinvesting
                  Foreign Earnings in the United States

                                 September 2005

                       Reference Number: 2005-30-150




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                             DEPARTMENT OF THE TREASURY
                                                  WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                  September 23, 2005


      MEMORANDUM FOR COMMISSIONER, LARGE AND MID-SIZE BUSINESS
                     DIVISION



      FROM:                         Pamela J. Gardiner
                                    Deputy Inspector General for Audit

      SUBJECT:                     Final Audit Report - Actions Are Needed to Ensure Corporations
                                   Receive Intended Tax Benefits for Reinvesting Foreign Earnings
                                   in the United States (Audit # 200530008)


      This report presents the results of our review of the Internal Revenue Service’s (IRS)
      implementation of Provision 422 of the American Jobs Creation Act of 2004 (AJCA).1
      The overall objective of this review was to determine whether the IRS effectively
      completed the planned actions to implement this Provision of the AJCA regarding the
      incentives to reinvest foreign earnings in the United States (U.S.).
      In summary, actions are needed to ensure corporations receive intended tax benefits for
      reinvesting foreign earnings in the U.S. The IRS developed and provided priority
      guidance and established controls related to the implementation of Provision 422. The
      IRS provided much of the required guidance on issues identified by external and
      internal stakeholders in multiple notices, fact sheets, and a draft of the required
      Form 88952 from January through May 2005. The date of enactment of the AJCA gave
      the IRS limited time to issue complete guidance to taxpayers.
      Although the IRS developed and provided priority guidance, it did not issue all of the
      necessary guidance in sufficient time for some taxpayers to determine their dividends
      received deduction and elect the most beneficial taxable year. Also, the required tax
      form to compute the dividends received deduction was not timely provided to taxpayers,
      even though the IRS’ initial guidance directed taxpayers to use the form.

      1
       Pub. L. No. 108-357, 118 Stat. 1418 (2004).
      2
       One-Time Dividends Received Deduction for Certain Cash Dividends from Controlled Foreign Corporations
      (Form 8895) was issued in preliminary draft form, without instruction, and posted to the IRS Draft Forms web site
      on May 12, 2005.
                                                      2

Two factors hindered the issuance of timely and complete guidance: (1) the complexity
of the law combined with the short implementation period and (2) certain issues needing
technical corrections that were pending enactment by Congress.
Because guidance was not always complete or timely, some taxpayers were at a
greater risk of being unable to determine the correct dividends received deduction and
to choose between 2 taxable years as the most beneficial taxable year in which to bring
the foreign earnings into the U.S. Certain unresolved issues may have prevented many
companies from completing their dividend distribution plans or claiming millions of
dollars in dividends received deductions. Without the required tax form and related
instructions, there was a greater risk of taxpayers incorrectly computing their allowable
dividends received deductions. Taxpayers could either understate or overstate their
deductions and be subjected to a substantial tax (up to 35 percent) on dividends
received deductions that would have otherwise been taxed at a rate of 5.25 percent. In
addition, there is a greater probability that amended returns would be necessary
because taxpayers did not have complete instructions and the required Form 8895 was
not available.
We recommended the Commissioner, Large and Mid-Size Business (LMSB) Division,
evaluate the impact of insufficient guidance on hindering taxpayers from taking the
deduction in the earlier of the 2 taxable years or both taxable years and coordinate with
the Office of Chief Counsel to elevate this matter to the Department of the Treasury. A
determination needs to be made as to whether legislation is necessary to extend the
time needed to ensure corporate taxpayers have complete guidance to enable them to
appropriately plan and receive the intended tax benefits for reinvesting foreign earnings
in the U.S. Also, we recommended the Commissioner, LMSB Division, coordinate with
responsible officials to ensure the required Form 8895 and related instructions are
issued as soon as possible and provide guidance regarding the filing of amended
returns to assist taxpayers in complying with Provision 422, when the deductions have
already been improperly taken or computed.
Management’s Response: The Commissioner, LMSB Division, disagreed with our
evaluation regarding the timeliness of the relevant guidance, form, and instructions.
The IRS believes its extraordinary efforts to expedite guidance, and issue the relevant
form and instructions, met the challenge of facilitating compliance under a complex
statute in an exceedingly short time. The IRS indicated that extending the Internal
Revenue Code Section 965 election3 for an additional year would have significant
revenue implications that undoubtedly were already part of Congress’ consideration in
enacting Provision 422. Also, the IRS indicated the final Form 8895 and its related
instructions were forwarded to IRS multimedia on August 18, 2005, for release to the
public. In addition, the IRS indicated that complete guidance and instructions have
already been provided to taxpayers in three priority notices and the instructions for
Form 8895, with regard to filing amended returns or other information for purposes of


3
 AJCA Provision 422 resulted in adding Section 965, Temporary Dividends Received Deduction, to the Internal
Revenue Code.
                                            3

complying with Internal Revenue Code Section 965. Management’s complete response
to the draft report is included as Appendix IV.
Office of Audit Comment: Congressional intent for Provision 422 was to allow taxpayers
to choose between 2 years (either Tax Years 2004 or 2005) to bring foreign earnings
back into the U.S. Since it took the IRS up to 10 months to issue needed guidance after
enactment of the legislation, certain Calendar Year 2004 filers and fiscal year filers
through August 19, 2005, did not have all the guidance necessary to choose the most
beneficial tax year. Our report has recognized factors outside the IRS’ control that
contributed to this delay.
However, in the interest of ensuring corporate taxpayers receive tax benefits as
intended, there are several reasons why the IRS should evaluate the impact of the
insufficient guidance provided during the initial 10 months after enactment of
Provision 422 on October 22, 2004. From news releases and other online services, it
was clear that taxpayers were affected as a result of waiting for the IRS’ position before
developing their reinvestment plans. It was recognized that the lack of timely guidance
and many unanswered questions caused some taxpayers to choose the later of the
2 allowable years. The issuance of 3 separate notices in January, May, and
August 2005, in excess of 150 pages and containing interrelated instructions, had to
affect the taxpayers’ ability to choose the election and accurately calculate the amount
of foreign earnings to be brought into the U.S. and the allowable dividends received
deductions. Instructions issued in three intervals could have caused additional
confusion and multiple amended returns.
In addition, to assist taxpayers in complying with Provision 422, the instructions
regarding filing amended returns should have been more extensive and care should
have been given to instructing taxpayers on filing amended returns once complete
guidance was provided. In January and May 2005, guidance was provided to taxpayers
indicating they could file amended returns. However, needed guidance concerning
computation of the dividends received deduction and the related form needed for the
computation were not issued until August 2005. As a result, there was a greater risk of
errors in computations and application of the law. In three separate notices, taxpayers
were advised that they could file amended returns with regard to specific limited
situations, potentially causing multiple amended returns to be filed.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Curtis Hagan, Assistant Inspector General for Audit (Small Business and Corporate
Programs), at (202) 622-3837.
         Actions Are Needed to Ensure Corporations Receive Intended Tax Benefits
                   for Reinvesting Foreign Earnings in the United States




                                                  Table of Contents


Background ............................................................................................... Page 1
The Internal Revenue Service Provided Priority Guidance and
Established Controls Related to Implementation of Provision 422 ............ Page 2
Some Taxpayers Were Not Timely Provided With All of the Guidance
Necessary to Determine Their Dividends Received Deduction and to
Elect the Most Beneficial Taxable Year .................................................... Page 4
         Recommendation 1: .......................................................................Page 10

Taxpayers Were Not Timely Provided With the Required Tax Form
to Compute Their Dividends Received Deduction. .................................... Page 12
         Recommendations 2 and 3: ...........................................................Page 14

Appendix I – Detailed Objective, Scope, and Methodology....................... Page 16
Appendix II – Major Contributors to This Report ....................................... Page 18
Appendix III – Report Distribution List ....................................................... Page 19
Appendix IV – Management’s Response to the Draft Report .................... Page 20
     Actions Are Needed to Ensure Corporations Receive Intended Tax Benefits for
                  Reinvesting Foreign Earnings in the United States

                                On October 22, 2004, President Bush signed the American
Background
                                Jobs Creation Act of 2004 (AJCA).1 Among the provisions
                                of this Act, Provision 422, Incentives to Reinvest Foreign
                                Earnings in the United States (U.S.), provides that certain
                                dividends received by a U.S. corporation from controlled
                                foreign corporations are eligible for an 85 percent dividends
                                received deduction. It was intended that this deduction and
                                the related reduction in U.S. taxes afforded these taxpayers
                                will stimulate the U.S. domestic economy by triggering the
                                reinvestment of foreign earnings into the U.S. that otherwise
                                would have remained abroad.2
                                At the taxpayer’s election, this deduction is available for
                                dividends received during either the taxpayer’s first taxable
                                year beginning on or after the date of enactment of the Act
                                (October 22, 2004) or the taxpayer’s last taxable year
                                beginning before such date. Dividends received after the
                                election period will be taxed in the normal manner under
                                present law. The deduction applies only to cash dividends.
                                Income earned by a domestic parent corporation from
                                foreign operations conducted by foreign corporate
                                subsidiaries generally is subject to U.S. tax when the
                                income is distributed as a dividend to the domestic
                                corporation. Until such distribution, the U.S. tax on the
                                income generally is deferred.
                                The Large and Mid-Size Business (LMSB) Division was the
                                operating division assigned the primary responsibility for
                                implementation of Provision 422. The LMSB Division’s
                                actions to implement Provision 422 involved multiple action
                                items, including providing training and guidance to Internal
                                Revenue Service (IRS) employees and taxpayers,
                                coordinating extensively with various IRS components,
                                creating and revising forms and publications, and generally
                                taking the necessary actions to effectively implement this
                                Provision.
                                This audit was conducted during the period February
                                through June 2005 at the IRS office in
                                Holtsville, New York, covering the LMSB Division’s

                                1
                                 Pub. L. No. 108-357, 118 Stat. 1418 (2004).
                                2
                                 The source of this information is from American Jobs Creation Act of
                                2004, Laws, Explanation and Analysis, page 217, CCH Incorporated.
                                                                                              Page 1
        Actions Are Needed to Ensure Corporations Receive Intended Tax Benefits for
                     Reinvesting Foreign Earnings in the United States

                                   responsibility in implementing Provision 422. The audit
                                   was conducted in accordance with Government Auditing
                                   Standards. Detailed information on our audit objective,
                                   scope, and methodology is presented in Appendix I. Major
                                   contributors to the report are listed in Appendix II.
                                   The timing of enactment of the legislation involving
The Internal Revenue Service
                                   Provision 422 gave the IRS limited time to issue complete
Provided Priority Guidance and
                                   guidance to taxpayers that would benefit from taking the
Established Controls Related to
                                   dividends received deduction.
Implementation of
Provision 422                      We were advised that, after enactment of Provision 422, the
                                   IRS designated guidance for this Provision as a top-priority
                                   item and made a significant staffing commitment, including
                                   having officials at the highest levels begin a coordinated
                                   outreach to both external and internal stakeholders in
                                   meetings, conferences, correspondence, and telephone calls
                                   for purposes of identifying and prioritizing issues needing
                                   guidance under the new Provision.
                                   The IRS focused on addressing those priority issue areas
                                   and addressing them in the priority order that had been
                                   established in the course of its outreach to external and
                                   internal stakeholders. Thus, the IRS targeted the issuance of
                                   three priority notices: the first primarily addressing
                                   domestic reinvestment plans and investments in the U.S.,
                                   the second primarily addressing the effects of mergers and
                                   acquisitions, and the third primarily addressing
                                   computational issues.
                                   On January 13, 2005, approximately 3 months after
                                   enactment of Provision 422, the IRS issued Notice 2005-10
                                   as well as a Fact Sheet. It addressed multiple issues,
                                   including adoption, content and compliance for domestic
                                   reinvestment plans, the kinds of investments in the U.S. for
                                   which the distributed dividends may be used under this
                                   program, definitions of terms, and a description of how
                                   taxpayers can elect to apply this section to the taxable year.
                                   This Notice was made available to major national and tax
                                   media and was included on the IRS web site (IRS.gov).
                                   On May 10, 2005, the IRS issued detailed guidance in
                                   Notice 2005-38, for the second in a series of notices to
                                   provide much-anticipated direction on the effects of
                                   mergers, acquisitions, and reorganizations in calculating the

                                                                                           Page 2
Actions Are Needed to Ensure Corporations Receive Intended Tax Benefits for
             Reinvesting Foreign Earnings in the United States

                           amount of eligible dividends. It included detailed
                           explanations of new rules on qualifying dividends,
                           maximum repatriations,3 and related-party indebtedness.
                           On May 12, 2005, the IRS posted to the Draft Forms web
                           site a draft of One-Time Dividends Received Deduction for
                           Certain Cash Dividends from Controlled Foreign
                           Corporations (Form 8895).4 We were informed that, in
                           accordance with standard procedure, the timing of this
                           issuance was coordinated with the guidance in process so
                           the draft Form 8895 was as close as possible to what is
                           anticipated to be the final version of the Form. The IRS
                           believed this should enable interested parties to have
                           confidence that the product would be substantially similar to
                           the final version that is anticipated to be released in
                           August 2005.
                           In August 2005, the third priority notice was anticipated to
                           be issued5 to address important computational issues relating
                           to the foreign tax credit, allocation of deductions, currency
                           translation, and the alternative minimum tax.
                           As part of the IRS’ outreach effort, the LMSB Division,
                           through the Office of Prefiling and Technical Guidance,
                           established a joint IRS/stakeholder working group to handle
                           issues related to the implementation of Provision 422 and
                           Internal Revenue Code (I.R.C.) Section (§) 965.6 In
                           addition to LMSB Division employees, the group is
                           comprised of members of the American Bar Association, the
                           American Institute of Certified Public Accountants, the
                           Manufacturers Alliance Product Innovation, and the
                           Treasury Executives Institute. The Office of Associate
                           Chief Counsel (International) addressed the new
                           I.R.C. § 965 through an International Network News release

                           3
                             The American Jobs Creation Act of 2004 – Conference Report by
                           CCH Incorporated refers to repatriation as follows: “Income earned by
                           a domestic parent corporation from foreign operations conducted by
                           foreign corporate subsidiaries generally is subject to U.S. tax when the
                           income is distributed as a dividend to the domestic corporation.”
                           4
                             The IRS posted the preliminary draft Form 8895, without the related
                           instructions, to the Draft Forms web site on May 12, 2005.
                           5
                             The IRS issued the third priority notice, Notice 2005-64 on
                           August 19, 2005.
                           6
                             AJCA Provision 422 resulted in adding § 965, Temporary Dividends
                           Received Deduction, to the I.R.C.
                                                                                            Page 3
        Actions Are Needed to Ensure Corporations Receive Intended Tax Benefits for
                     Reinvesting Foreign Earnings in the United States

                                   on January 21, 2005, which was sent to international
                                   personnel within both the Office of Chief Counsel and the
                                   LMSB Division.
                                   The LMSB Division created for its employees an AJCA
                                   web page for its web site that contained links to the notices,
                                   news releases, fact sheets, and other existing technical
                                   guidance relating to the AJCA.
                                   In addition, the IRS has the Legislative Implementation
                                   Tracking System (LITS), which is an IRS Intranet-based
                                   planning and monitoring system for implementation of tax
                                   legislation. It is designed to enable the responsible offices
                                   to monitor legislation that has a significant impact on the
                                   IRS. The web site has the required actions with estimated
                                   due dates and indicates the functions responsible for taking
                                   the necessary actions to implement the provisions. Also, the
                                   web site shows which action items are on time or running
                                   behind schedule.
                                   Although the IRS developed and provided priority guidance
Some Taxpayers Were Not
                                   and established controls related to implementation of
Timely Provided With All of the
                                   Provision 422, some taxpayers were not provided with
Guidance Necessary to Determine
                                   sufficient guidance.
Their Dividends Received
Deduction and to Elect the Most    Provision 422 was enacted on October 22, 2004, which gave
Beneficial Taxable Year            the IRS a very short window of opportunity for ensuring all
                                   aspects needed to successfully implement this Provision of
                                   the law were completed. Initial guidance was issued in
                                   January 2005, followed by more detailed guidance and the
                                   draft Form 8895 in May 2005, with the need for still
                                   additional guidance. In August 2005, a third notice was
                                   anticipated to be issued to address remaining priority issues,
                                   and the final Form 8895 and instructions were scheduled to
                                   be released.
                                   This new Provision is a “1-year only” opportunity. At the
                                   taxpayer’s election, the deduction is available for dividends
                                   received during the taxpayer’s first tax year that begins
                                   during the 1-year period beginning on October 22, 2004, or
                                   during the taxpayer’s last tax year beginning before
                                   October 22, 2004. Therefore, these 2 options generally
                                   allow taxpayers to take this deduction in 1 of 2 taxable
                                   years.


                                                                                           Page 4
Actions Are Needed to Ensure Corporations Receive Intended Tax Benefits for
             Reinvesting Foreign Earnings in the United States

                           A Calendar Year taxpayer would have had fewer than
                           3 months in 2004 (October 22 to December 31, 2004) to
                           take the dividends received deduction, without having any
                           guidance. For approximately one-half of Calendar
                           Year 2005, complete guidance had not been provided to
                           taxpayers.7 We determined approximately 67 percent of
                           corporate filers are calendar year filers and 33 percent are
                           fiscal year filers.
                           Also, the filing of an extension to file after the due date of
                           the return will give the taxpayer more time to file a tax
                           return. However, it would not increase or change the time
                           required to bring the cash dividends into the U.S. or allow
                           more time to review and consider any additional or newly
                           issued guidance, to determine the amount of dividends to
                           bring in or claim as a deduction. Taxpayers would also
                           have to anticipate the amount of tax due and make the
                           necessary payment at the time the extension is filed.
                           IRS and Department of the Treasury officials commented
                           publicly, in news articles and in Notices 2005-10 and
                           2005-38, that additional notice(s) are expected to provide
                           guidance regarding the implementation of Provision 422.
                           Issues identified in the Fact Sheet and related
                           Notice 2005-38 by the IRS as still needing additional
                           notice(s) included:
                           •   The impact of Provision 422 on a corporation’s
                               computation of its tax liability.
                           •   The use of foreign tax credits and the deduction of
                               certain expenses to offset the nondeductible portion of
                               the dividends received deduction.
                           Management indicated these issues will be addressed in the
                           third priority notice anticipated to be issued in August 2005.
                           The following factors have hindered the issuance of timely
                           guidance regarding Provision 422:

                           7
                            Complete guidance was not issued within the first 7 months
                           (November 2004 through May 2005) of the enactment of Provision 422.
                           Calendar year taxpayers for 2004 and fiscal year taxpayers with tax
                           years ending in October 2004, November 2004, or January 2005 through
                           whenever complete guidance becomes available are at risk of incorrectly
                           deducting dividends.
                                                                                          Page 5
Actions Are Needed to Ensure Corporations Receive Intended Tax Benefits for
             Reinvesting Foreign Earnings in the United States

                           •   The complexity of the law combined with the short
                               implementation period made it difficult to timely issue
                               complete guidance.
                           •   Certain issues needing technical corrections are still
                               pending enactment by Congress.
                           The complexity of the law combined with the short
                           implementation period made it difficult to timely issue
                           complete guidance
                           Provision 422 is so complex that approximately 100 pages
                           of clarification have already been issued by the IRS, and it
                           is still not adequate. The Department of the Treasury and
                           IRS indicated they still need to issue additional notice(s) to
                           answer all of the unresolved issues.
                           The last guidance, Notice 2005-38 (Section 965 –
                           Limitations on dividends received deduction and other
                           guidance) issued May 10, 2005, was over 50 pages and
                           contained 15 sections, which demonstrates the complexity
                           of Provision 422. The issues covered by Notice 2005-38
                           included:
                           •   General principles that apply in determining the amount
                               of cash dividends received by a U.S. shareholder that is
                               considered extraordinary for purposes of
                               I.R.C. § 965(b)(2).8
                           •   General principles that apply in determining the
                               maximum amount of dividends eligible under
                               I.R.C. § 965(b)(1)9 to be taken into account under
                               I.R.C. § 965(a).10
                           •   The taxable year to which I.R.C. § 965 applies.
                           •   The effects of certain transactions on the determination
                               of a U.S. shareholder’s limitations.




                           8
                             This I.R.C. Section relates to the limitations on the dividends that are
                           considered extraordinary.
                           9
                             This I.R.C. Section sets forth the limitations on the amount of
                           dividends that can be taken as a deduction.
                           10
                              This I.R.C. Section generally describes the nature of the dividends
                           received deduction.
                                                                                               Page 6
Actions Are Needed to Ensure Corporations Receive Intended Tax Benefits for
             Reinvesting Foreign Earnings in the United States

                           •    Guidance and principles for determining under
                                I.R.C. § 965(b)(3)11 the amount of related-party
                                indebtedness that reduces the amounts taken into
                                account under I.R.C. § 965(a), including special
                                adjustments made as a result of certain transactions.
                           •    Guidance regarding the impact of certain transactions on
                                domestic reinvestment plans.
                           •    Other issues arising under I.R.C. § 965, including the
                                application of I.R.C. § 78,12 the expenses disallowed
                                under I.R.C. § 965(d)(2),13 and the computation of the
                                alternative minimum tax.
                           •    Transition rules that apply to certain taxpayers that, prior
                                to the issuance of this Notice, either adopted a domestic
                                reinvestment plan or filed a tax return for a taxable year
                                to which I.R.C. § 965 applies.
                           Notice 2005-38 also contained over 40 case examples (with
                           individual sets of facts, results, and alternative facts) to aid
                           in understanding the guidance being provided.
                           Certain issues needing technical corrections are still
                           pending enactment by Congress
                           The IRS and Congress have recognized the need for
                           technical corrections and, on November 19, 2004, the Tax
                           Technical Correction Act of 2004 was introduced to correct
                           and clarify previous tax laws.14 The bill includes technical
                           corrections to provisions in the AJCA.
                           On March 17, 2005, a letter was sent to the Acting Deputy
                           Assistant Secretary (Tax Policy) by the Chairman,
                           Committee on Finance; the Chairman, Committee on Ways

                           11
                              This I.R.C. Section relates to the reduction in benefits if there is an
                           increase in related-party indebtedness.
                           12
                              This I.R.C. Section is entitled Dividends Received from Certain
                           Foreign Corporations by Domestic Corporations Choosing Foreign Tax
                           Credit.
                           13
                              This I.R.C. Section generally relates to the denial of certain expenses
                           that are allocated and apportioned to the deductible portions of
                           dividends.
                           14
                              On November 19, 2004, the Chairman of the Committee on Ways and
                           Means introduced H.R. 5395, Tax Technical Corrections Act of 2004.
                           H.R. 5395 includes provisions that technically correct and clarify the
                           intent of previous tax laws.
                                                                                             Page 7
Actions Are Needed to Ensure Corporations Receive Intended Tax Benefits for
             Reinvesting Foreign Earnings in the United States

                           and Means; and the Ranking Member, Committee on
                           Finance. The letter specifically indicated:
                                We are particularly aware that certain technical
                                corrections may be necessary to carry out the intent of
                                [S]ection 965 of the Internal Revenue Code, which
                                provides a temporary dividends received deduction for a
                                portion of the dividends received by a U.S. corporation
                                from a controlled foreign corporation. These technical
                                corrections would, among other things:
                                1. Clarify that the disallowance of expenses in
                                   [S]ection 965(d)(2) applies only to expenses that are
                                   “directly allocable” to the deductible portion
                                   described in [S]ection 965(d)(1) 15 and
                                2. Clarify that [S]ection 78 does not apply to any tax
                                   which is not allowable as a credit under
                                   [S]ection 90116 by reason of [S]ection 965(d).
                           We anticipate introducing a technical corrections bill at the
                           earliest opportunity in the 109th Congress, and we
                           anticipate that the above two technical corrections will be
                           introduced in that bill. We trust that this letter provides
                           sufficient clarification so that appropriate guidance may be
                           issued reflecting our intention.
                           While the technical corrections bill was still pending and is
                           not limited to the two technical corrections mentioned
                           above, IRS Notice 2005-38 did contain some guidance on
                           these two issues.
                           Taxpayers may be adversely affected
                           Because guidance was not complete or timely, some
                           taxpayers were at a greater risk of being unable to determine
                           the correct dividends received deduction and choose
                           between 2 allowable taxable years as the most beneficial
                           taxable year in which to bring the foreign earnings into the
                           U.S. in order to take the deduction. Also, many unresolved
                           issues may have prevented companies from completing their



                           15
                              This I.R.C. Section generally relates to the denial of certain foreign
                           tax credits.
                           16
                              Taxes of Foreign Countries and of Possessions of the United States.
                                                                                              Page 8
Actions Are Needed to Ensure Corporations Receive Intended Tax Benefits for
             Reinvesting Foreign Earnings in the United States

                           dividend distribution plans until it is clearer how the
                           unresolved issues affect them. For example:
                           •    Some taxpayers will be unable to plan for or take
                                advantage of the dividends received deduction in Tax
                                Year 2004 because complete guidance was not issued.

                                An article prepared by one of the leading accounting
                                firms in New York17 indicated:
                                   Given the complexities and the nature of the analysis
                                   that has to be done to optimize the benefits, as well
                                   as the many unanswered questions that awaited IRS
                                   guidance—a great many of which still remain—it
                                   appears that virtually all potential beneficiaries will
                                   choose to apply the temporary Section 965 DRD18 in
                                   2005.
                                This article further indicated:
                                   In addressing the requirements of a domestic
                                   investment plan and providing much needed details
                                   as to what investments are permitted uses,
                                   Notice 2005-10 might provide some companies with
                                   enough information to allow them to develop a
                                   strategy for implementing Section 965. On the other
                                   hand, companies that expect to have significant base
                                   period issues, that have undertaken mergers,
                                   acquisitions, or divestitures during the past several
                                   years or that need to understand the direction that
                                   [the Department of the] Treasury will take in
                                   implementing the related party anti-abuse provision
                                   to be set forth in the coming technical corrections
                                   bill—to name just a few—will no doubt prefer to
                                   await additional guidance from the IRS before
                                   moving forward on Section 965 planning.
                                   The IRS indicated that, subsequent to this article,
                                   Notice 2005-38, issued in May 2005, addressed
                                   these issues, and the remaining priority issues will

                           17
                              This article was prepared by James J. Tobin, Esq. (Ernst & Young
                           LLP, New York, New York) and was entitled “An Analysis of the
                           Low-Tax Repatriation Provision Enacted by the American Jobs Creation
                           Act of 2004 and of Notice 2005-10.” The article was not dated.
                           18
                              DRD is the dividends received deduction.
                                                                                       Page 9
Actions Are Needed to Ensure Corporations Receive Intended Tax Benefits for
             Reinvesting Foreign Earnings in the United States

                                   be addressed in the third notice anticipated in
                                   August 2005.
                           •    Some taxpayers may be unable to claim the
                                deduction because they could not choose the
                                preferred taxable year (2004 or 2005) due to
                                guidance not being available.
                                One large data processing company reported to the
                                Securities and Exchange Commission in a quarterly
                                report ending December 31, 2004,19 that “The Company
                                has started an evaluation of the effects of the repatriation
                                [P]rovision; however, the Company does not expect to
                                be able to complete this evaluation until Congress acts
                                on the pending Technical Corrections Bill and Treasury
                                Department [sic] provides additional clarifying language
                                on key elements of the [P]rovision.” The company
                                further indicated it could repatriate between $0 and
                                $500 million, with the related potential range in income
                                tax between $0 and $35 million.

                           Recommendation

                           The Commissioner, LMSB Division, should:
                           1. Evaluate the impact of insufficient guidance on
                              hindering taxpayers from taking the deduction in the
                              earlier of the 2 taxable years or both taxable years and
                              coordinate with the Office of Chief Counsel to elevate
                              this matter to the Department of the Treasury. A
                              determination needs to be made as to whether legislation
                              is necessary to extend the time needed to ensure
                              corporate taxpayers have complete guidance to enable
                              them to appropriately plan and receive the intended tax
                              benefits for reinvesting their foreign earnings in the U.S.
                           Management’s Response: Management disagreed with our
                           recommendation, indicating it was based on the assumption


                           19
                             The source of this statement is the United States Securities and
                           Exchange Commission Form 10-Q, Quarterly Report Pursuant to
                           Section 13 or 15(d) of The Securities Exchange Act of 1934, For the
                           Quarterly Period Ended December 31, 2004, regarding Automatic Data
                           Processing, Inc, Note 15, Income Taxes (Page 16 of 46) secured from
                           the Internet.
                                                                                      Page 10
Actions Are Needed to Ensure Corporations Receive Intended Tax Benefits for
             Reinvesting Foreign Earnings in the United States

                           that taxpayers have not been provided timely and sufficient
                           guidance. The IRS explained in its response that relevant
                           guidance, form, and instructions were provided timely and
                           on a priority basis. Moreover, extending the I.R.C. § 965
                           election for an additional year would have significant
                           revenue implications that undoubtedly were already part of
                           Congress’ consideration in enacting Provision 422.
                           Office of Audit Comment: Although management had
                           provided guidance to help taxpayers take advantage of the
                           dividends received deduction, the fact remains that, from
                           October 22, 2004, through August 19, 2005 (10 months),
                           the IRS did not provide all taxpayers with complete or
                           timely guidance. There are multiple reasons why the IRS
                           should evaluate the impact of the insufficient guidance
                           provided during the initial 10 months after the enactment of
                           Provision 422. From news releases and other online
                           services, it was clear that taxpayers were affected because
                           they were waiting for the IRS’ position before developing
                           their reinvestment plans. It was recognized that the lack of
                           timely guidance and many unanswered questions caused
                           some taxpayers to choose the later of the 2 allowable years.
                           The issuance of 3 separate notices in January, May, and
                           August 2005, in excess of 150 pages and containing
                           interrelated instructions, had to affect the taxpayers’ ability
                           to choose the election and accurately calculate the amount
                           of foreign earnings to be brought into the U.S. and the
                           allowable dividends received deductions. Instructions
                           issued in three intervals could have caused additional
                           confusion and multiple amended returns. Errors in
                           calculations could cost taxpayers millions of dollars.
                           Also, the Congressional intent for Provision 422 was to
                           allow taxpayers to choose between 2 years (either Tax
                           Years 2004 or 2005) to bring foreign earnings back into the
                           U.S. Since it took the IRS up to 10 months to issue needed
                           guidance, certain Calendar Year 2004 filers and fiscal year
                           filers through August 19, 2005, did not have all the
                           guidance necessary to choose the most beneficial tax year.
                           Our report has recognized factors outside the IRS’ control
                           that contributed to this delay.



                                                                                  Page 11
        Actions Are Needed to Ensure Corporations Receive Intended Tax Benefits for
                     Reinvesting Foreign Earnings in the United States

                                   Four different business tax returns20 directed taxpayers to
Taxpayers Were Not Timely
                                   use Form 889521 for Tax Year 2004 to elect to take the
Provided With the Required Tax
                                   dividends received deduction. A draft Form 8895, without
Form to Compute Their
                                   the related instructions, was posted on the IRS Draft Forms
Dividends Received Deduction
                                   web site on May 12, 2005. A statement was posted with the
                                   draft Form that cautioned taxpayers that the Form was
                                   subject to change and approval before being released. Also,
                                   it requested comments concerning the Form for the IRS’
                                   consideration, to be sent within 30 days of the posting of the
                                   Form. Management anticipated that the final Form 8895
                                   and instructions would be available in August 2005.22
                                   Notice 2005-1023 states that, if a taxpayer files its tax return
                                   for the taxable year in which it intends to elect I.R.C. § 965,
                                   but the prescribed Form 8895 has not been issued or
                                   published by the IRS, the election must be made on a
                                   statement that is attached to its timely filed tax return
                                   (including extensions) for such taxable year. However, this
                                   guidance did not provide the specific information that
                                   should be included on the statement that is to be attached to
                                   the return. The Form 8895 or statement was supposed to
                                   support the line item relating to “Dividends from foreign
                                   controlled corporations subject to the 85% deduction
                                   (Attach Form 8895).”
                                   The action item on the LITS relating to coordinating the
                                   implementation of Provision 422 with the Tax Forms and
                                   Publications Division was shown as being completed as of
                                   December 31, 2004, while Form 8895 and related
                                   instructions have not been issued to the public.


                                   20
                                      U.S. Corporation Income Tax Return (Form 1120), U.S. Life
                                   Insurance Company Income Tax Return (Form 1120-L), U.S. Property
                                   and Casualty Insurance Company Income Tax Return (Form 1120-PC),
                                   and Farmers’ Cooperative Association Income Tax Return
                                   (Form 990-C).
                                   21
                                      One-Time Dividends Received Deduction for Certain Cash Dividends
                                   from Controlled Foreign Corporations (draft Form 8895).
                                   22
                                      On May 12, 2005, draft Form 8895 was posted on the IRS web site
                                   without the related instructions. The draft Form 8895 is an advance
                                   proof copy of an IRS tax form that is subject to change and Office of
                                   Management and Budget approval. The draft Form 8895 allows
                                   30 days from the date the draft was posted on the IRS web site for
                                   comments and suggestions.
                                   23
                                      Section 7, Election to Apply Section 965 to a Taxable Year.
                                                                                               Page 12
Actions Are Needed to Ensure Corporations Receive Intended Tax Benefits for
             Reinvesting Foreign Earnings in the United States

                           A factor contributing to the inability of the IRS to provide
                           the Form 8895 to the public is that complete guidance was
                           not issued timely with regard to the issues related to
                           computing the dividends received deduction. We were
                           informed that the dates for the issuance of the final
                           Form 8895 and instructions were pushed back to a time that
                           coincides with the issuance of guidance contained in the
                           next priority notice.
                           The draft Form 8895 developed by the IRS included
                           information that could assist filers in computing their
                           dividends received deduction. Parts of the Form provided a
                           guide to taxpayers through the steps needed to:
                           •   Determine the amount of their gross cash dividends that
                               qualify for the deduction.
                           •   Compute the proper amount of dividends to report on
                               their corporate returns and help them determine their
                               nondeductible dividends.
                           •   Determine their regular tax liability for each of the
                               business credits they may be entitled to claim.
                           •   Compute an additional limitation that must be
                               considered for separate foreign tax categories with
                               nondeductible dividends.
                           •   Compute their average base period repatriation level.
                           The draft Form 8895 also asked taxpayers to include
                           information as to how they qualify for the deduction, to list
                           all of the gross cash dividends they received from all
                           controlled foreign corporations during the tax year, and to
                           specifically identify the dividends that qualify for the
                           deduction and those that are I.R.C. § 965(a)(2) amounts.
                           Since this draft Form was not scheduled to be finalized and
                           published with instructions for taxpayers’ use until
                           August 2005, calendar year taxpayers for 2004 and fiscal
                           year taxpayers through August 2005 that decided to claim
                           the deduction did so without the guidance, information, and
                           instructions for the Form 8895.
                           Without the Form 8895 and related instructions to facilitate
                           computation of the basis for the allowable dividends
                           received deduction, there is a greater risk of computing the
                                                                                  Page 13
Actions Are Needed to Ensure Corporations Receive Intended Tax Benefits for
             Reinvesting Foreign Earnings in the United States

                           allowable dividends received deduction incorrectly
                           (i.e., taxpayers could either understate or overstate their
                           deductions and be subjected to a substantial tax (up to
                           35 percent) on dividends received deductions that, in most
                           cases, could exceed millions of dollars and would have
                           otherwise been taxed at a rate of 5.25 percent).24 In
                           addition, there is a greater probability that amended returns
                           would be necessary because of errors caused by the absence
                           of the Form 8895.

                           Recommendations

                           The Commissioner, LMSB Division, should coordinate with
                           responsible officials to ensure:
                           2. Form 8895 and related instructions are issued as soon as
                              possible.
                           Management’s Response: The final Form 8895 and its
                           related instructions were forwarded to IRS multimedia on
                           August 18, 2005, for release to the public.
                           3. Guidance and instructions are provided with regard to
                              filing amended returns to assist taxpayers in complying
                              with Provision 422, when dividends received deductions
                              have already been improperly taken or computed.
                           Management’s Response: Complete guidance and
                           instructions have already been provided to taxpayers in
                           three priority Notices and the instructions for Form 8895
                           with regard to filing amended returns or other information
                           for purposes of complying with I.R.C. § 965.

                           Office of Audit Comment: To assist taxpayers in
                           complying with Provision 422, the instructions regarding
                           filing amended returns should have been more extensive and
                           care should have been given to instructing taxpayers on
                           filing amended returns once complete guidance was
                           provided. In January and May 2005, guidance was provided
                           to taxpayers indicating they could file amended returns.

                           24
                             The Department of the Treasury initially estimated income to the
                           Federal Government for Provision 422 for Fiscal Year 2005 will be
                           $2.8 billion; however, the net effect over the 10-year period 2005-2014
                           would be a cost to the Federal Government of $3.3 billion.
                                                                                          Page 14
Actions Are Needed to Ensure Corporations Receive Intended Tax Benefits for
             Reinvesting Foreign Earnings in the United States

                           However, needed guidance concerning computation of the
                           dividends received deduction and the related form needed
                           for the computation were not issued until August 2005. As
                           a result, there was a greater risk of errors in computations
                           and application of the law. In three separate notices,
                           taxpayers were advised that they could file amended returns
                           with regard to specific limited situations, potentially causing
                           multiple amended returns to be filed.




                                                                                  Page 15
       Actions Are Needed to Ensure Corporations Receive Intended Tax Benefits for
                    Reinvesting Foreign Earnings in the United States

                                                                                                   Appendix I


                          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the Internal Revenue Service
(IRS) effectively completed the planned actions to implement the provision of the American Jobs
Creation Act of 2004 (AJCA)1 regarding the incentives to reinvest foreign earnings in the United
States (U.S.). To accomplish this objective, we:
I.   Evaluated whether the IRS had identified and scheduled the actions necessary to implement
     Provision 422.
     A. Reviewed tax legislation created by the AJCA regarding incentives to reinvest foreign
        earnings in the U.S.
     B. Reviewed statistics regarding the volume of tax returns filed by business taxpayers who
        may be affected by AJCA Provision 422 and the volume of U.S. corporations with
        controlled foreign corporations.
     C. Determined what actions have been taken by the IRS to implement AJCA Provision 422.
        1. Reviewed and monitored the Legislative Implementation Tracking System (LITS)2 to
           identify planned actions to implement this Provision, due dates and related statuses of
           completion, owners and co-owners of the actions, and indications of whether the
           statuses were updated.
        2. Contacted the Large and Mid-Size Business (LMSB) Division to identify the steps
           planned and taken to identify actions still needed from each function to fully
           implement this Provision.
        3. Identified potential indications of the IRS’ inability to meet completion dates and
           obtained information with regard to any completion dates that may appear
           questionable in successfully implementing this Provision in Fiscal Year 2005.
        4. Determined from a review of the LITS and inquiries with IRS management whether
           interim measures were being considered in instances in which there were problems in
           meeting due dates or when dates have been revised to later dates.
II. Determined whether policies and procedures were established to ensure the IRS timely
     provided the necessary guidance to business taxpayers and practitioners to enable taxpayers
     to successfully comply with the tax law.



1
 Pub. L. No. 108-357, 118 Stat. 1418 (2004).
2
 The LITS is an IRS Intranet-based planning and monitoring system for implementation of tax legislation. It is
designed to monitor legislation that has a significant impact on the IRS.
                                                                                                          Page 16
      Actions Are Needed to Ensure Corporations Receive Intended Tax Benefits for
                   Reinvesting Foreign Earnings in the United States

   A. Obtained information from IRS management with regard to the process or procedures
      developed to ensure necessary guidance and information were provided to taxpayers
      and/or practitioners. We determined whether the IRS can identify U.S. corporations that
      can or have received certain dividends from controlled foreign corporations that would be
      eligible for the 85 percent dividends received deduction.
   B. Reviewed the two issued Notices (Notices 2005-10 and 2005-38) and related Fact Sheets
      that provided guidance for the reinvestment of foreign earnings in the U.S.
   C. Reviewed the Practitioners’ Guide to the Filing Season, Tax Talk Today, and the
      IRS E- News for Practitioners to determine whether information is being provided by the
      IRS to practitioners to enable them to ensure taxpayers are successfully complying with
      AJCA Provision 422.
   D. Reviewed News Releases from the “In the News” section of the IRS web site (IRS.gov)
      on a daily basis regarding Provision 422 to identify any trends related to the guidance
      being provided.
III. Determined whether the IRS timely developed and revised forms, schedules, instructions, or
     publications, when necessary.
   A. Contacted the Tax Forms and Publications Division and obtained the potential list of
      forms, instructions, and publications affected by the AJCA.
   B. Identified the affected forms, instructions, and publications related to AJCA
      Provision 422.
   C. Identified the stated changes required to the affected documents and the status of these
      changes.
   D. Obtained and reviewed affected forms, instructions, and publications from the IRS
      web site to determine whether they were available on the web site and the stated required
      changes had been made to the affected documents. If forms were not available, we
      monitored the IRS web site to determine when the forms became available.
   E. Contacted the IRS forms toll-free number, 1-800-829-3676, to request the tax forms
      affected by AJCA Provision 422. We determined whether the forms were available or
      needed to be “back ordered.”
   F. Contacted LMSB Division management to determine the status of the draft One-Time
      Dividends Received Deduction for Certain Cash Dividends from Controlled Foreign
      Corporations (Form 8895), proposed contents, status, and expected date of issuance.




                                                                                         Page 17
      Actions Are Needed to Ensure Corporations Receive Intended Tax Benefits for
                   Reinvesting Foreign Earnings in the United States

                                                                                Appendix II


                           Major Contributors to This Report

Curtis Hagan, Assistant Inspector General for Audit (Small Business and Corporate Programs)
Richard J. Dagliolo, Director
Robert K. Irish, Audit Manager
Michael D. Luongo, Lead Auditor
W. George Burleigh, Senior Auditor
Philip Peyser, Senior Auditor




                                                                                      Page 18
     Actions Are Needed to Ensure Corporations Receive Intended Tax Benefits for
                  Reinvesting Foreign Earnings in the United States

                                                                        Appendix III


                              Report Distribution List

Commissioner C
Office of the Commissioner - Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Commissioner, Wage and Investment Division SE:W
Deputy Commissioner, Large and Mid-Size Business Division SE:LM
Deputy Commissioner, Wage and Investment Division SE:W
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Commissioner, Large and Mid-Size Business Division SE:LM
       Commissioner, Wage and Investment Division SE:W




                                                                              Page 19
Actions Are Needed to Ensure Corporations Receive Intended Tax Benefits for
             Reinvesting Foreign Earnings in the United States

                                                                   Appendix IV


             Management’s Response to the Draft Report




                                                                         Page 20
Actions Are Needed to Ensure Corporations Receive Intended Tax Benefits for
             Reinvesting Foreign Earnings in the United States




                                                                         Page 21
Actions Are Needed to Ensure Corporations Receive Intended Tax Benefits for
             Reinvesting Foreign Earnings in the United States




                                                                         Page 22
Actions Are Needed to Ensure Corporations Receive Intended Tax Benefits for
             Reinvesting Foreign Earnings in the United States




                                                                         Page 23
Actions Are Needed to Ensure Corporations Receive Intended Tax Benefits for
             Reinvesting Foreign Earnings in the United States




                                                                         Page 24
Actions Are Needed to Ensure Corporations Receive Intended Tax Benefits for
             Reinvesting Foreign Earnings in the United States




                                                                         Page 25
Actions Are Needed to Ensure Corporations Receive Intended Tax Benefits for
             Reinvesting Foreign Earnings in the United States




                                                                         Page 26
